December 20, 2005

MEMORANDUM FOR:            EMILY STOVER DE ROCCO
                           Assistant Secretary for Employment
                            and Training




FROM:                      ELLIOT P. LEWIS
                           Assistant Inspector General
                            for Audit

SUBJECT:                   Management Letter No. 06-06-004-03-315
                           Claimants with Unemployment Claims in Both
                           Mississippi and Louisiana Related to Hurricane
                           Katrina

SUMMARY

We have identified 238 potentially fraudulent claims in Mississippi and Louisiana
related to Hurricane Katrina. Only after review of each case can a determination
be made as to whether these cases are fraudulent and, if so, in which State the
fraud occurred.

INTRODUCTION

Normally a Management Letter is provided to be read in conjunction with an
accompanying audit report. However, due to the proactive nature of our current
work related to Hurricane Katrina, we will be issuing Management Letters to
inform the Department, in this case, the Employment and Training Administration
(ETA), of issues/problems we believe should be disclosed to help the
Department’s programs operate efficiently and effectively while reducing the
possibility of fraud, waste, and abuse.

BACKGROUND

On August 29, 2005, Hurricane Katrina hit the Louisiana, Mississippi, and
Alabama coasts resulting in a national disaster. Both the States of Louisiana and
Mississippi were inundated with Unemployment Insurance (UI) and Disaster
Unemployment Assistance (DUA) claims.

This Management Letter is an interim reporting mechanism and should be read
with the understanding that only after the information in this Management Letter
is evaluated/investigated by the OIG’s Offices of Audit (OA) and Labor
Racketeering and Fraud Investigations (OLRFI), the Louisiana Department of
Labor, and the Mississippi Department of Employment Security, can a
determination be made as to the legitimacy of these unemployment claims.

SCOPE

Our objective is to assist the States to ensure that only legitimate UI and DUA
claims are paid and that fraudulent claims are terminated as soon as possible to
reduce the drain on the States’ Unemployment Trust Funds and the Federal
FEMA funds used to pay DUA.

We obtained Hurricane Katrina-related UI and DUA databases from Mississippi
and Louisiana. At the time we received this data, Mississippi had processed
UI/DUA claims for weeks ending September 10 through October 15, 2005; and
Louisiana had processed UI/DUA claims for weeks ending September 10 through
November 5, 2005. The number of claims processed for each State for these
periods was as follows:

             State             Number of Claims Processed
                                 UI                 DUA
          Mississippi          65,058              15,103
          Louisiana            186,531             86,443

We matched the States’ UI/DUA data files against each other by Social Security
Number (SSN), through the latest available week-ending date for Mississippi, to
see if claimants filed UI/DUA claims in both States.

This work was conducted in conjunction with the President’s Council on Integrity
and Efficiency (PCIE) as part of the examination of relief efforts provided by the
Federal government in the aftermath of Hurricanes Katrina and Rita. Upon
issuance in final, a copy of this Management Letter will be forwarded to the PCIE
Homeland Security Working Group, which is coordinating Inspectors General
reviews of this important subject.

RESULTS

We identified 238 claims where the same SSN was used to file claims in both
States and benefits were paid in both States for the same week-ending
dates. The following is a summary of the 238 cases:




                                        2
     Number of                                  Description
       Cases
                        UI claims in both States. Claimants have wages in both
          3             States
         130            DUA claims in Louisiana. UI claims in Mississippi
          25            DUA claims in Mississippi. UI claims in Louisiana
          64            DUA claims in both Mississippi and Louisiana
          16            Same SSN in both States but different names on claims in
                        each State:
                             12 with UI claims in Mississippi and DUA in Louisiana
                              4 with DUA claims in both States
Total    238

Information on the specific cases will be provided under separate cover.

OIG auditors and investigators met with State UI personnel (Louisiana on
November 29 and 30, and Mississippi on December 1 and 2, 2005) to present
our data to them. We requested the States’ assistance in reviewing these claims
to determine if they are fraudulent.

State wages are required for a claimant to file a UI claim; therefore, where both
UI and DUA claims are being paid to the same claimant, it is more likely that the
DUA claim is fraudulent. Where DUA is being paid to a claimant in both States,
one of the claims is most likely fraudulent. Consequently, Federal FEMA dollars
for DUA are more likely at risk than State UI funds.

RECOMMENDATION

Because of the susceptibility for these federally-funded DUA claims to be
fraudulent, we recommend that ETA encourage the Regional ETA offices to
assist the States in their case reviews to expedite the identification of fraudulent
claims.

AGENCY RESPONSE

In response to the draft Management Letter, the Assistant Secretary for
Employment and Training stated that ETA has staff onsite in both States to
provide technical assistance. The response further stated that each claim is
being reviewed and, if an immediate explanation is not found, a non-monetary
issue will be established in the State’s automated benefit system, an attempt
made to contact the claimant for additional information, and action taken to stop
and recover improper payments, as appropriate. Finally, the response stated
ETA will work with the States to crossmatch their DUA claims against their


                                          3
bordering states’ claims to identify potentially fraudulent claims. The Assistant
Secretary’s response is included in its entirety as an Attachment.

OIG CONCLUSION

Based on the Assistant Secretary’s response, we consider the recommendation
resolved. It will be closed upon receipt of the results of ETA’s actions as
described in the response.

This final Management Letter is submitted for appropriate action. We request a
response within 60 days describing actions taken in response to the
recommendation.

If you have any questions concerning this Management Letter, please contact
John Riggs, Regional Inspector General for Audit, in Dallas at (972) 850-4003.

Attachment


cc:    Steven Law
       Deputy Secretary




                                         4
5
6
